                    AUDIT OF SBA'S PROCESS FOR COMPLYING
                    WITH THE FEDERAL MANAGERS' FINANCIAL
                          INTEGRITY ACT REPORTING
                                REQUIREMENTS

                              AUDIT REPORT NUMBER 4-34

                                       JULY 29, 2004




This report may contain proprietary information subject to the provisions of 18 USC § 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                                Washington, DC 20416

                                                                    AUDIT REPORT
                                                           Issue Date: July 29, 2004

To:           Thomas A. Dumaresq                           Report Number: 4-34
              Chief Financial Officer

              Michael J. Pappas
              Associate Administrator for Field Operations


From:         Robert G. Seabrooks [FOIA Ex. 6]
              Assistant Inspector General for Auditing

Subject:      Audit of SBA's Process for Complying with the Federal Managers'
              Financial Integrity Act Reporting Requirements


       We completed an audit of the process that SBA has developed in order to comply with
the Federal Managers' Financial Integrity Act (FMFIA) reporting requirements and found that
SBA needs to develop more effective procedures for compliance with FMFIA.


                                        BACKGROUND

        In 1982, Congress passed FMFIA which requires agencies to develop cost-effective
internal accounting and administrative controls. These controls are intended to help ensure that
an agency’s (1) obligations and costs comply with applicable laws; (2) funds, property, and other
assets are safeguarded from waste, loss, or mismanagement; and (3) revenues and expenditures
are properly recorded and accounted for. The Chief Financial Officers Act of 1990, requires the
Chief Financial Officer (CFO) to develop and maintain internal controls within the Agency.

        FMFIA tasked the General Accountability Office (GAO) and the Office of Management
and Budget (OMB) to issue agencies guidance to assist them in establishing, assessing, and
reporting on internal controls. As a result, GAO Standards for Internal Control in the Federal
Government (GAO Standards), was issued to provide agencies an overall framework for
establishing and maintaining internal controls and OMB Circular A-123, Management
Accountability and Control (OMB Circular A-123), was issued to provide agencies specific
requirements for assessing and reporting on internal control.
        Section 2 of FMFIA requires the head of each agency to annually evaluate their agency's
internal controls and report to the President and Congress on whether those controls comply with
the GAO Standards. The agency head must include in the report any identified material
weaknesses in the internal accounting and administrative controls as well as a plan for correcting
those weaknesses. A material weakness is a deficiency in internal control that the Administrator
determines to be significant enough to be reported outside the agency.

        To satisfy this reporting requirement, SBA’s Administrator certifies in SBA's
Performance and Accountability Report (PAR) whether the Agency’s internal controls are
achieving their intended objectives in accordance with applicable requirements. This
certification, referred to in this report as the “Administrator’s assurance statement,” is based on
the following process as represented in the FY 2002 PAR.

        District and headquarters managers employ various assessment tools to assess their
internal controls. They submit assertion letters to the Office of the Chief Financial Officer
(OCFO) and the Office of Field Operations (OFO) on the status of their respective organization’s
internal controls. These assertion letters also address any corrective actions the managers have
taken with respect to weaknesses identified by GAO and the Office of Inspector General (OIG).
CFO and OFO then review the assertion letters to ensure any areas of concern noted by the
managers are incorporated into SBA’s internal control process and determine whether all
outstanding audit issues were adequately addressed. OFO provides comments to OCFO based on
their review of the assertion letters from district managers.

         OCFO is responsible for formulating the Administrator’s assurance statement. Based on
the letters from OFO and the headquarters offices, OCFO drafts the Administrator’s assurance
statement. The Administrator then certifies whether or not the Agency’s controls are meeting
their intended objectives in accordance with FMFIA and relevant GAO and OMB criteria. In
FY 2002 and FY 2003, the Administrator provided a “qualified” statement of assurance due to
one financial management related material weakness in FY 2002 and two weaknesses in
FY 2003.

                                  OBJECTIVES AND SCOPE

        The overall objective of this limited scope audit was to evaluate the adequacy of SBA’s
process for assessing and reporting on the effectiveness of its internal controls in accordance
with section 2 of FMFIA, OMB Circular A-123, and the GAO Standards. The specific
objectives were to (1) determine what policies and procedures SBA had implemented to ensure
that SBA managers are meeting specific objectives of FMFIA; (2) assess the adequacy of the
processes used by SBA to develop and implement appropriate controls, assess risks, improve
internal controls, and report annually on the adequacy of its internal controls; and (3) determine
the adequacy of procedures SBA used for gathering, assessing, summarizing, and reporting the
data provided by its program and district offices for the development of the Administrator’s
statement of assurance. We did not perform an audit of SBA's internal controls, including
controls associated with the Agency's accounting system, in accordance with the GAO Standards
and OMB Circular A-123. Our purpose was to focus solely on the FMFIA assessment and
reporting process.
        To accomplish the objectives, we reviewed applicable laws and regulations including
FMFIA, OMB Circular A-123, and the GAO Standards. We also reviewed SBA’s internal
policies and procedures including applicable SOPs, procedural notices, PARs and its internal
control intranet website. Additionally, we judgmentally selected and interviewed responsible
representatives from nine oversight, program and district offices as detailed in the table below.

                       Sampled          Total
          Office      Population      Population                Selected Offices
                                                     Office of Entrepreneurial
        Oversight         2               4          Development and Office of
                                                     Management and Administration
                                                     Office of Women's Business
                                                     Ownership, Office of Financial
        Program           3               21
                                                     Assistance, and Office of Surety
                                                     Guarantees
                                                     Washington Metropolitan Area
                                                     District Office, Baltimore District
        District          4               80
                                                     Office, Philadelphia District Office
                                                     and Richmond District Office.

       We also reviewed the sampled offices', OCFO's, and OFO’s procedures for identifying
and assessing internal controls, collecting data and summarizing the results for the
Administrator’s FY 2002 and 2003 FMFIA assurance statements.

       Fieldwork was performed in Washington, DC and at selected district offices from June
2003 to April 2004. The audit was conducted in accordance with Government Auditing
Standards.


                                       AUDIT RESULTS

       We determined that SBA has not established and maintained an effective process for
ensuring SBA's compliance with FMFIA's annual internal control assessment and reporting
requirements. We specifically concluded that:

       1. SBA needs to more effectively communicate its FMFIA assessing and reporting
          requirements,
       2. SBA's policies and procedures regarding internal control assessment are not
          sufficient,
       3. Management is not performing complete risk assessments of their respective offices
          in accordance with regulations,
       4. OCFO needs to take a more active role in monitoring the FMFIA reporting process,
       5. SBA's FY 2002 PAR regarding the Agency's internal control process contained
          inaccurate information, and
       6. SBA has a potential material weakness related to its FMFIA internal control
          assessment and reporting process.
        SBA's lack of effective procedures for assessing and reporting on internal controls in
accordance with FMFIA in itself is a potential material weakness. If not corrected immediately,
this condition should be reported as a material weakness to the President and Congress in SBA's
FY 2004 FMFIA assurance statement.


Finding 1: SBA Needs to More Effectively Communicate its FMFIA Assessing and
          Reporting Requirements

       The process for ensuring SBA's compliance with FMFIA's annual internal control
assessment and reporting requirements needs to be communicated more effectively throughout
the Agency. We found that:

       •   Sampled SBA managers were unclear as to their roles and responsibilities regarding
           FMFIA.
       •   Sampled managers were not aware of resources available to assist in the assessment
           of their internal controls.
       •   More than half of the required oversight and program offices did not provide
           assertion letters to OCFO in FY 2003.

This lack of information impaired management's ability to accomplish their duties and possibly
led them to submit inaccurate internal control assessments to OCFO on the strength of their
office's internal control structure. As a result, the Administrator may have released an inaccurate
assurance of the Agency's internal control status to the President and Congress.

       One way to help ensure SBA's compliance with FMFIA is to hold management
accountable for the FMFIA process in their performance standards. A stronger understanding of
the importance of FMFIA by Agency management will help ensure the data provided in the
annual assurance statement is accurate and complete.

Responsible Oversight, Program and District Officials Were Unclear as to Their Roles and
Responsibilities Regarding FMFIA.

         Officials from one oversight office, three program offices, and one district office did not
understand what FMFIA was and their role in the FMFIA process. Despite the lack of
understanding about the process, four of these officials certified in assertion letters to OCFO that
their offices had met the stated internal control objectives of their operations and did not report
any material weaknesses. Additionally, during interviews, none of the sampled program offices
were able to go into specifics about the process they used to gather and summarize the
information for the assertion letters. One program official did not even know their program
office was required to assess internal controls annually. As a result, there is no assurance that the
letters submitted by those oversight, program and district offices were accurate assessments of
their internal controls.

     Our audit also found that OFO did not have a clear understanding of its role in SBA’s
FMFIA process. SBA’s internal control procedural notices for FY 2002 and 2003 required that
District Directors (DD), Branch Managers (BM), and Regional Administrators (RA) forward
their assertion letters to OFO, which was responsible for consolidating the information and
forwarding a summary to OCFO. The representative handling the assertion letter in OFO for
FY 2002 stated it was his understanding that OFO was to act merely as a bridge of information
between the field offices and OCFO. He thought when a district office sent an assertion letter to
OFO it was simply his job to forward it to OCFO. The representative did not review the letters
or summarize the information into a statement for OCFO. As a result, OFO did not know the
district office's assessment of their internal control objectives and whether they reported any
material weaknesses. The representative stated this occurred because he misread the procedural
notice.

       In FY 2003, OFO did review and summarize the assertion letters from the district offices,
however, OFO did not provide the summarization to OCFO until after the draft assurance
statement had been submitted for review by OCFO. As a result, OFO's assertion was not used in
formulating the draft assurance statement in FY 2003.

        OCFO officials acknowledged the required process was not followed, however, they
stated that in both FY 2002 and 2003, the assertion statements from the district offices were
reviewed by OCFO prior to the release of the Administrator's annual assurance statement.
Therefore, the submitted assertion statements from the district offices were considered when
formulating the Administrator's assurance statement.

SBA Needs to Better Educate Its Employees about the Resources Available for Assessing and
Improving Internal Controls.

        Although SBA has provided agency management and employees various internal control
assessment tools via its internal control intranet website, we found that none of the sampled
offices utilized these tools. As a result, Agency management and employees are not benefiting
from the use of such tools when performing their annual internal control assessments.

       In 1999, SBA set up the internal control website to implement an internal control
framework within SBA. The website is very user friendly and provides internal control criteria
and standards, information as to how the framework was being implemented into SBA, and
provides assessment tools such as an information technology risk assessment template, risk
assessment template, control evaluation template and action plan template. OCFO provided this
beneficial information to Agency management and employees for their use in assessing and
improving their office's internal controls.

         Our audit found, however, that of the nine sampled offices, five of the offices were
unaware of the tools on the website, and the remaining four offices were aware of the tools, but
stated they do not use them. This may have occurred because OCFO did not issue guidance in
its informational, policy, and procedural notices regarding internal control to educate managers
and employees about the tools and how they are to be utilized.
        One tool provided on the intranet website that we believe should be utilized is the
corrective action plan template. OMB Circular A-123 states that corrective action plans should
be developed for all deficiencies identified through the internal control assessment process,
whether material or not. The template provided by OCFO includes steps that are to be followed
to mitigate an identified problem. Each step is to have a due date, explanation of how the step
will improve the problem and a person designated to oversee the work. Our audit found that
none of the sampled offices questioned knew about the corrective action plan template available
on the intranet website. We believe that using the corrective action plan template will help
ensure that deficiencies are being mitigated effectively and efficiently.

Requested Internal Control Assertion Letters Were Not Always Submitted

        For FY 2003, only 14 out of 29 internal control assertion letters were submitted by
oversight and program offices to OCFO as requested by SBA's internal guidance. As a result,
OCFO may have lacked sufficient data in developing the Administrator's FY 2003 internal
control assurance statement. Therefore, the assertion letter released by the Administrator in FY
2003 may be unsupported and based on incomplete data.

       In order to gather the information for the Administrator's annual assurance statement,
OCFO released procedural notices in FY 2002 and 2003 requiring SBA management to submit
an annual assertion letter regarding their respective office's internal controls. These statements
would provide the Administrator with information on accomplishments and alert him to actual
and potential problems within the organization's internal controls.

        The internal control procedural notice for FY 2003 did not include a list of specified
offices that were to submit an assertion statement to OCFO, as it did in FY 2002. Therefore, we
concluded that for FY 2003, assertion letters were requested to be submitted by all managers to
whom the procedural notice was addressed. This included all Associate Deputy Administrators
(ADA), RAs, DDs, Associate Administrators (AA), and Directors of preferred lenders program
(PLP) centers and servicing centers. The procedural notice stated that RAs and DDs were to
provide their assertion letters to OFO and the Directors of PLP centers and servicing centers
were to provide their letters to the Office of Capital Access.

        Thus, 29 managers were requested to provide assertion letters to OCFO. Of the 29
managers, only 14 submitted letters to OCFO. This was a result of OCFO not clearly stating
which agency officials were to submit assertion statements in the internal control procedural
notice for FY 2003. Consequently, SBA needs to more effectively communicate which
managers are required to submit assertion letters and to whom they are to be submitted to.

        Based on discussions with OCFO officials, they agreed that the procedural notice
requesting assertion statements did not clearly state which agency officials were to submit
statements directly to OCFO. They stated, however, that it was only intended that statements be
received from the ADA level officials and their letters in turn would be supported by the AAs of
the program offices beneath them. Accordingly, they believe statements from the ADA level
will provide a complete assessment of the agency. We agree that sufficiently supported assertion
statements for the ADA level would cover part of the agency, however, offices that are not
headed by an ADA should be required to submit assertion statements to OCFO. Such offices
include the Office of Disaster Assistance, Office of Veteran's Business Development and Office
of the Chief Information Officer.

SBA Management Should Be Held Accountable for Their Involvement in the FMFIA Process

        Based on the issues presented in this report, we believe that SBA should do more to
enhance the internal control environment within the Agency. This will ensure that Agency
managers and employees are aware of the important role they play in developing, maintaining
and assessing their office's internal controls. To help accomplish this, we recommend SBA
include FMFIA related job performance standards in its performance appraisal system for
applicable Agency managers and OCFO officials. We discussed the feasibility of this idea with
a representative from SBA's Office of Human Resources. It is our understanding that this can be
done as long as SBA clearly defines its expectations of managers with respect to FMFIA.

       We believe that holding management accountable for their involvement in the FMFIA
process would create a more positive and supportive attitude towards internal control.
Additionally, this would help ensure that managers are maintaining and assessing their internal
controls and risks according to applicable criteria.

Recommendations:

We recommend that the Chief Financial Officer:

1A.    Develop policies and procedures for SBA managers that explain FMFIA and their
       responsibilities regarding FMFIA. The policies and procedures should establish
       guidelines for the evaluation by Agency managers of their systems of internal
       accounting and administrative controls.

1B.    Provide training to SBA management on the policies and procedures developed as a
       result of recommendation 1A.

1C.    Take actions to make Agency managers aware of the resources (i.e. intranet tools of
       risk and internal control assessment) that are available on SBA's intranet website and
       educate the managers on how to best utilize these resources in performing internal control
       assessments.

1D.    Work in conjunction with the Office of Human Resources to incorporate FMFIA related
       job performance standards in the performance appraisals of selected SBA managers and
       clearly define the standards for which managers are to be held accountable.

We recommend that the Associate Administrator for Field Operations:

1E.    Work in conjunction with the Chief Financial Officer to inform all Regional
       Administrators and District Directors about FMFIA and their responsibilities
       regarding FMFIA.
SBA Management's Response:

        OCFO generally disagreed with finding 1 and related recommendations 1A and 1D in our
draft report. OCFO agreed with recommendations 1B and 1C. OFO agreed with
recommendation 1E.

        OCFO believes that the cause for finding one is more accurately defined as a
communication issue rather than SBA not having established and maintained an effective process
for reporting on internal controls according to section 2 of FMFIA. They requested that we
change the first sentence of finding one to reflect the idea that procedures for FMFIA compliance
need to be more adequately communicated.

        OCFO disagreed with the section of finding 1 entitled, "Required Internal Control
Assertion Letters Were Not Always Submitted." They stated that while the notice requesting the
assertion letters was sent to 29 managers, it was not their intent that all 29 managers submit an
assertion letter to OCFO. OCFO stated that their intent was to receive letters from only the ADA
level, but they could ask their lower level management to provide assertion statements and use
them in their coordination, conclusion and summarization.

        With respect to the section of finding 1 entitled, "Responsible Oversight, Program and
District Officials Were Unclear as to Their Roles and Responsibilities Regarding FMFIA,"
OCFO agreed that OFO did not review the assertion letters submitted by the district offices and
did not submit a summary in FY 2002. However, OCFO felt that it was important to point out
that even though OFO had not reviewed the letters from the district offices, the district letters
were reviewed by OCFO.

        OCFO also stated that in FY 2003 OFO did review and summarize the assertion letters
from the district offices but it was also correct that OFO did not provide the summarization until
after the draft assurance statement had been submitted for review. OCFO further stated that
OFO had verbally assured OCFO that none of the assertion letters from the district offices
contained any material weaknesses and OCFO had reviewed the letters prior to circulating the
draft assurance statement.

       With respect to the section of finding 1 entitled, "SBA Management Should Be Held
Accountable for Their Involvement in the FMFIA Process," OCFO believes that although the
performance standards do not specifically mention FMFIA, internal controls are covered in the
Personal Business Commitment Plans (PBCs) for Supervisors, Managers and Senior Executive
Service officials. OCFO believes that instead of modifying the current PBCs, OCFO should
concentrate on training those individuals to achieve a similar result. OCFO proposed that
recommendation 1D be eliminated. OCFO's response is included in its entirety as Attachment 1.

       With regard to finding one and recommendation 1E, OFO agreed with the finding and
recommendation as stated in the report. In their response to the OIG, OFO points out that
FMFIA is the primary responsibility of OCFO and throughout the report it should be represented
as such. OFO's response is included in its entirety as Attachment 2.
OIG Evaluation of Management's Response:

        OCFO's planned actions are responsive to recommendations 1B and 1C. OFO's planned
actions are responsive to recommendation 1E.

        We agree with OCFO that the issues under finding 1 could be more accurately described
as resulting from a communication problem rather than SBA having an ineffective process in
place for FMFIA compliance. In turn, we revised the first sentence to reflect that the FMFIA
annual internal control assessment and reporting requirements need to be more effectively
communicated throughout out the Agency.

         In addition, while it may have been the intent of OCFO to only receive assertion letters
from the ADA level, this was not clearly stated in the procedural notice requesting assertion
letters. Accordingly, we believe that all ADAs and AAs should have submitted an assertion
statement in FY 2003.

        We also believe that only receiving assertion letters from the ADAs would not be
sufficient information to support the Administrator's assurance statement. While an assertion
statement provided by an ADA should be supported by the assertion statements from the AAs of
the program offices underneath that ADA, there are several offices within the agency that are not
headed by an ADA. Examples of these offices include the Office of Disaster Assistance, Office
of Veterans Business Development, and Office of the Chief Information Officer.

        We agree that not all 29 managers need to be required to submit assertion statements to
OCFO if they fall under a supervisory manager who is required to submit an assertion statement
to OCFO. We changed the wording in the finding to state that the 29 managers were requested
to submit assertion statements and concluded that SBA needs to more effectively communicate
which managers are required to submit assertion letters. We also included a paragraph in the
audit report stating that receiving assertion statements from only ADAs would not be sufficient
to support the Administrator's assurance statement as some program offices do not report to an
ADA.

        We agree that OCFO reviewed the district offices assertion letters prior to the release of
the assurance statements in FY 2002 and FY 2003. Therefore, we added additional language to
the finding to clarify this point.

       We reviewed the PBCs for Supervisors, Managers and Senior Executive Service officials
and believe that internal control reporting is not sufficiently addressed in the PBC. We still
believe that, if possible, PBCs for applicable Agency managers and OCFO officials should be
modified to include FMFIA internal control assessment and reporting elements. In turn, the
applicable recommendation remains unchanged.
Finding 2: SBA Has Not Developed Sufficient Policies and Procedures for the Agency's
           Internal Control Assessment Process

        OCFO has not developed sufficient policies and procedures for ensuring the Agency's
compliance with FMFIA. SBA's internal control SOP is outdated leaving SBA management to
rely on a procedural notice as their guidance regarding internal control assessment. While a
procedural notice can be used for disseminating information throughout the Agency or as
temporary guidance, it should not serve as the only source of guidance regarding internal control
assessment. As a result, SBA has not provided management sufficient permanent policies and
procedures to allow them to properly assess internal control, including providing management
with a definition of material weakness as it relates to SBA and its objectives.

Effective Standard Operating Procedures for Internal Control are Outdated

       SBA’s current internal control SOP is outdated as it does not incorporate the current
GAO Standards as well as provisions of other applicable laws. As a result, SBA management
and employees do not have proper standards and guidance for establishing, maintaining, and
evaluating the internal control systems within their offices.

        In 2001, OCFO developed a revised SOP for internal control that updated SBA’s current
policies. Draft SOP 00 02 3, Internal Controls, was sent through the appropriate channels for
clearance, including review by the Office of General Counsel (OGC) and the Office of Inspector
General (OIG), but was never issued in final.

        OCFO officials stated that SOP 00 02 3 was never issued in final due to reorganization of
OCFO, the passage of the Sarbanes/Oxley Bill and the incorporation of comments from OGC.
Because draft SOP 00 02 3 was never finalized, SBA is still under the direction of SOP 00 02 2,
which is outdated. SOP 00 02 2 was finalized in 1986 and does not include provisions from the
Chief Financial Officer’s Act of 1990, Government Performance and Results Act of 1993,
Government Management Reform Act of 1994, Federal Financial Management Improvement
Act of 1996, Federal Information Security Management Act of 2002, OMB Circular A-123
issued in 1995 and the GAO Standards issued in 1999. OCFO also stated that a new SOP is in
final clearance and they anticipate issuance over the next 60 to 90 days.

SBA Officials Did Not Have a Universal Understanding on What Weaknesses Should Be
Classified as Material Weaknesses.

       An important part of internal control assessment is the identification of reportable
material internal control weaknesses. The Administrator's annual internal control assurance
statement to the President and Congress is required to include any material weaknesses that are
present in SBA's internal control system.

       When the nine sampled offices were asked how they defined material weakness, they
generally provided the following four responses:
               Definition of Material Weakness                Oversight   Program   District
    Keeps the program from being able to perform its proper
                                                                 √          √         √√
    function and mission
    Anything that effects the integrity of the program                      √          √
    Determined based on money thresholds and the wasting
                                                                 √                     √
    of government funds
    Higher level of program weakness than an auditor’s
                                                                            √
    determination of a internal control weakness
    √ represents one office's response


        While all of these responses may indicate that a material weakness exists, this shows that
there is not a universal understanding by Agency management on what deficiencies should be
considered material weaknesses. Accordingly, Agency management in SBA's program oversight
offices may be defining material weakness differently than the program offices they oversee.
This could lead to a material weakness not being properly identified at several levels and
disclosed to upper management and/or outside the Agency as appropriate.

        We believe this is caused by a lack of internal Agency guidance on this matter. While
SBA issues a procedural notice to Agency management annually regarding internal control
assessments, this guidance is not detailed enough. The guidance states that material weaknesses
are to be reported by agency managers in their assertion letters and references OMB Circular
A-123 as the Agency's definition of material weakness. This circular does not give a clear
definition of an internal control weakness; it merely states that a material weakness is a
deficiency that the agency head determines to be significant enough to be reported outside the
agency.

        Therefore, SBA should issue guidance which defines material weakness as it relates to all
levels within the Agency. The GAO Standards state that management is responsible for
developing detailed policies and procedures to fit their agency's operations. By providing
specific guidance on what the agency deems to be a material weakness, this will help agency
managers determine if weaknesses such as those identified by the OIG as serious agency
management challenges and those identified by the OIG's independent auditors as a result of the
annual financial statement audit, should be reported outside the agency.

        To illustrate, the OIG noted in its FY 2002 and 2003 management challenges reports,
several areas where SBA programs or activities pose significant risk. However, the
Administrator's assurance statement for FY 2002 did not include any of the challenges as
material, and in FY 2003, only weaknesses related to one of the challenges were considered
material. Without clear guidance, there is no assurance that Agency managers are giving proper
consideration to the results of OIG and other independent reviews when formulating their
assertion letters.

        We found that other agencies had developed definitions of material weakness specific to
their agency. For example, the National Oceanic and Atmospheric Administration defines
material weakness as a serious problem that could significantly impair the fulfillment of an
agency or component's mission, deprive the public of needed services, violate statutory
requirements, weaken safeguards against waste and loss or result in a conflict of interest. Also,
U.S. Army White Sands Missile Range which provides quality test, evaluation, research, and
other technical services to the Army and Department of Defense determines materiality by the
degree of impaired mission accomplishment, statutory violations, information security impact
and public deprivation of Government services. Further, the Department of Interior formed a
material weakness team who developed criteria for defining a material weakness as it related to
their agency.

Recommendations:

We recommend that the Chief Financial Officer:

2A.    Take appropriate action to revise, clear and issue draft SOP 00 02 3 within 120 days and
       include the policies and procedures described in recommendation 1A.

2B.    Clearly define material weakness as it relates to SBA and its programs in SOP 00 02 3
       and define material weakness at the different levels of management within the Agency.


SBA Management's Response:

        OCFO generally agreed with finding 2 and recommendations 2A and 2B, but disagreed
with the reasons listed in the draft report for why SOP 00 02 3 had not been issued. OCFO
stated that there has not been a "loss of motivation" to get the SOP issued in final, but rather the
SOP was delayed due to a number of factors including: the reorganization of OCFO, passage of
Sarbanes/Oxley, and the incorporation of comments from the Office of General Counsel.
Additionally, they believe it is unfair that we represent in the report that OCFO has to devise a
plan of action regarding internal control implementation before issuing an updated SOP. They
believe that SBA already has an active internal control system.

        They also noted that the new SOP would be in final clearance and anticipate issuance
over the next 60 to 90 days. In addition to the SOP finalization and issuance, OCFO stated they
would be issuing more detailed informational notices and providing management training to
managers throughout the Agency. In conclusion, OCFO asked that we remove paragraphs 3 and
4 and indicate that a new SOP is in draft.

        OCFO agreed with the section of finding 2 entitled, "SBA Officials Did Not Have a
Universal Understanding on What Weaknesses Should Be Classified as Material Weaknesses,"
and stated that more detailed information regarding material weakness would be beneficial.
OCFO also wanted to ensure that the report clearly states that the definition used by the Agency
is identical to the definition as it is stated in OMB Circular A-123.
OIG Evaluation of the Management's Response:

        We have removed the sentence regarding what was stated by an OCFO official in an
interview regarding the loss of motivation to issue SOP 00 02 3 in final due to a change in
leadership in the Administration and OCFO. The sentences regarding the current SOP being
outdated and the applicable provisions not being included in the SOP are statements of fact and
will remain.

        We also removed the sentence that stated OCFO officials in a recent interview
acknowledged that they have taken no action to get a current SOP finalized and would not do so
until OCFO had devised a plan of action regarding internal control implementation. We instead
stated that a new SOP is in final clearance and OCFO anticipates issuance over the next 60 to 90
days.

        With respect to ensuring the report reflects that the Agency's definition of material
weakness is identical to the definition in OMB Circular A-123, we added additional wording to
the finding in order to clarify that point.


Finding 3: SBA is not Performing Complete Risk Assessments in Accordance with
           Applicable Requirements

         SBA management is not performing a complete risk assessment of their respective offices
in accordance with the GAO Standards. In FY 2003, all seven of the sampled program and
district offices stated that they performed a systematic risk assessment. The two sampled
oversight offices, however, did not perform risk assessments. We reviewed the documentation
provided by the sampled offices to support their risk assessment and found the assessments to be
incomplete. Risk assessment is a preventative process, allowing management to identify
potential weaknesses that impede the ability to accomplish program or operating objectives
before they occur. By not performing complete risk assessments, SBA may develop weaknesses
that could have be deterred had the assessment been properly performed.

       Annual risk assessments are an integral part of evaluating an agency's internal controls.
Risk assessment can be broken down into a four step process. According to the GAO Standards
an agency must:

   1. Develop clear and consistent objectives, such as those defined in the strategic and annual
      performance plans. (Example - upgrade office's management information systems by
      March 31, 2004)
   2. Identify all risks, both internal and external, that would keep the office from achieving
      the clear and consistent objectives. (Example risk - office will be unable to properly
      orient and train the employees using the upgraded system by March 31, 2004)
   3. Analyze each risk for its effect, significance and likelihood of occurrence.
   4. Decide on how to manage the risk and what actions should be taken.
        This process is performed to ensure that current internal controls are sufficient to meet
newly developed goals and objectives. If risks are identified, management has the opportunity to
create new internal controls to ensure that the goals and objectives can be met.

        As part of the assertion letter preparation process for FY 2003, SBA managers were
asked in the procedural notice regarding internal control assessment to refer to the assertion letter
template on OCFO's intranet website. The assertion letter template is an outline of what the
assertion letter should include and how it should be formatted. The template has a specific
section regarding the performance of systematic risk assessments. OCFO gave managers two
options to complete a systematic risk assessment. Managers could complete an Agency
developed internal control checklist or perform their own management analysis.

Internal Control Checklist

        SBA developed the internal control checklist by incorporating the results of a mapping
process that was performed on all program offices and most district offices between 1999 and
2001. Mapping was a formal, documented process in which employees judged the effectiveness
of the processes in their respective offices to meet their objectives. The checklist is a 49 page
document that breaks down various functions performed within SBA (e.g. loan process, surety
bond guarantee, and 8(a) business development review). The functions are then broken down
into detailed step-by-step activities that need to be completed in order to carry out the task.

        Of the 69 district offices and 14 program offices that provided assertion letters in
FY 2003, 59 district offices and 1 program office stated in their assertion letters that they
completed the internal control checklist as their risk assessment. Of the nine offices in our
sample, all four district offices and one program office completed the checklist. We reviewed
the internal control checklist to determine if it complied with the four steps of risk assessment
according to the GAO Standards. It complied with one step, partially complied with two steps,
and did not comply with the remaining step as shown on the following table.

         Risk Assessment Step      Compliance                  Reasons for non-compliance

   1   Goal development          Yes
   2   Risk identification       Partially        The checklist does identify internal risks by identifying
                                                  required activities within the tasks that are not being
                                                  performed by an office. The checklist, however, does
                                                  not identify any external risks. It is important to note
                                                  that as new functions or tasks are introduced into the
                                                  Agency the checklist needs to be updated and the
                                                  activities listed.
   3   Risk analysis             Partially        The checklist does not provide a step for analyzing a
                                                  risk's occurrence and it possible effect. The checklist
                                                  only estimates the risk's significance based on ranking
                                                  each activity on a scale of 1-4, 1 being a significant
                                                  problem and 4 not as significant.
   4   Risk mitigation           No               The checklist does not require the user to create any
                                                  mitigating plans or actions to prevent the risk from
                                                  occurring.
        While the checklist is a useful tool for program and district offices to use for risk
assessment, we determined that it did not allow for a complete risk assessment to be performed.
For steps three and four, we asked that the offices provide supporting documentation that these
steps were performed. None of the offices were able to provide the documentation. They stated
that the remainder of risk analysis and all of risk mitigation were performed through
management meetings and none of these meetings were documented. As a result, there was no
documentation to support that complete risk assessments had been performed in accordance with
the GAO Standards.

Management Analysis

      The other option given to managers for performing a risk assessment was to perform a
management analysis of their business process, functions and/or area. OCFO advised that the
managers also gather information through management and staff interviews.

         Of the 69 district and 14 program offices that provided assertion letters in FY 2003, 7
district offices and 7 program offices stated in their assertion letter that they performed
management analysis for risk assessment. Of the nine sampled offices, two program offices
stated that they performed a management analysis for risk assessment. We reviewed available
documentation provided by the program offices to support their management analyses to
determine if they had performed a risk assessment according to the GAO Standards.

        We determined that the program offices complied with the first step of risk assessment,
goal identification, according to the GAO Standards. Both program offices had goals and
projects listed in SBA's Scorecard (e.g. counsel 41,000 clients by September 30, 2004) which
directly tied back to one of SBA's three strategic goals. The Scorecard is an SBA internal
tracking system where oversight, program and district offices establish product and/or production
related goals. The office then updates the Scorecard and tracks its progress in achieving those
goals throughout the year. The Scorecard tallies production and states whether the goal was or
was not accomplished.

        Our audit found, however, that the program offices did not comply with the three
additional risk assessment steps of risk identification, analysis and mitigation. The
documentation provided by the sampled program office to support their management analyses
consisted of reviews of program participants. These reviews were compliance reviews to
determine whether the program participants were complying with applicable federal regulations,
SBA SOPs, and other specified SBA guidance. These reviews did not address, assess, or
mitigate risks that would keep the program office or program participant from achieving the
goals specified in the Scorecard.

        As a result, we concluded that the management analyses performed by the two selected
offices were not a complete risk assessment according to the GAO Standards. We believe that
this occurred because SBA management did not receive proper guidance on how to perform risk
assessments and understand their importance in the internal control assessment process.
Furthermore, such weaknesses in the internal control assessment process undermine the
Administrator's ability to provide an accurate and complete assurance statement.
Recommendations:

We recommend that the Chief Financial Officer:

3A.    Provide detailed guidance to the oversight, program and district offices to explain how
       and when they are to perform and document a complete risk assessment according to the
       GAO Standards.

3B.    Update the internal control checklist as new functions are introduced into the Agency.


SBA Management's Response and OIG's Evaluation of Management's Response:

        OCFO agreed with finding 3 and recommendations 3A and 3B regarding actively
maintaining the internal control checklist and including information about risk assessment in the
internal control guidance. OCFO believes that through the implementation of the Loan
Monitoring System, the Agency has made substantial progress in the area that may represent the
largest risk. OCFO's planned actions are responsive to recommendations 3A and 3B.


Finding 4: OCFO Should Take an Active Role in Monitoring the FMFIA Process

        SBA should take a more active role in monitoring the FMFIA process. Our audit found
that OCFO (1) did not ensure that all program office assertion statements were submitted timely,
(2) did not ensure that all required program offices provided assertion letters, and (3) did not
provide feedback to management regarding their internal control assessments. As a result, there
is no assurance that OCFO had adequate data to support the Administrator's assurance statement.

Managers Did Not Submit Their Assertion Letters by the Required Deadline

        For FY 2003, none of the 14 assertion letters received by OCFO from the oversight and
program offices were received by the required due date. As a result, this may not have given
OCFO the necessary time to perform a sufficient review of the information provided in the
assertion letters before drafting the Administrator's assurance statement.

        The internal control procedural notice, issued in FY 2003, required the assertion letters to
be completed and forwarded to the Chief Financial Officer by October 1, 2003. Seven of the 14
letters were submitted in November, 5 letters were submitted in December, and 2 letters were
submitted in January of the next year, including 1 letter which was submitted after the draft
assurance statement had been circulated for clearance by OCFO to the OIG and OGC. OCFO
needs to ensure that the offices are providing their assertion letters in time for their review and
inclusion in the Administrator's annual assurance statement.
Requested Oversight and Program Managers Did Not Provide Assertion Letters

        As presented in finding 1, in the section titled Requested Internal Control Assertion
Letters Were not Always Submitted, 15 of the 29 requested oversight and program managers did
not provide an assertion letter in FY 2003. As a result, OCFO lacked sufficient data in
developing the Administrator's FY 2003 internal control assurance statement. The lack of
program offices providing assertion letters shows that there is need for OCFO's active
involvement in ensuring each requested program office submits their assertion letter so that the
assurance statement is adequately supported.

SBA Did Not Provide Feedback to Management Regarding Their Internal Control Assessment

        Eight out of the nine sampled offices stated during interviews that they did not have any
communication with OCFO during or after the FMFIA assessment process. The remaining office
stated that they could not recall if they had been contacted by OCFO.

        In order to help ensure that the assertion letters being provided by Agency managers are
acceptable and fulfill the needs of the Agency, OCFO should routinely communicate with the
Agency management throughout the assessment process. This communication should help
OCFO determine whether Agency managers are conducting assessments timely, thoroughly, and
in accordance with the applicable guidance. Also Agency management would be more likely to
inquire of OCFO when they have a question about the assessment process.

        To illustrate this point, a representative from one district office stated during an interview
that she had questions regarding the internal control checklist and how it is supposed to be used,
but did not know who in OCFO to contact. Another representative from the same district office
said that even if they were to ask questions about the checklist it would cause too much chaos
and it was not worth the headache. If OCFO provided and maintained contact with the
responsible Agency managers during the assessment process, this type of confusion should be
minimized. Not having open communications with the program and district office regarding the
assessment tools and assertion letter opens the possibility that management may not be using the
tools properly and leads to inconsistencies in reporting.


Recommendation:

We recommend that the Chief Financial Officer:

4A.    Develop monitoring policies and procedures that will help ensure that the
       Administrator's assurance statement is based on complete and accurate data.
SBA Management's Response:

       OCFO partially disagreed with finding 4 and the related recommendation. Even though
OCFO is in agreement that the assertion letters were not received timely, they stated that when
no response was submitted by a responsible ADA, AA or district director, there was a follow up
process via telephone. OCFO also disagreed with the section of the finding entitled, "Required
Oversight and Program Managers Did Not Provide Assertion Letters." See management's
response and our evaluation of management's response in finding 1. Additionally, OCFO
believes that they supplied sufficient OCFO contact information in their internal control
procedural notice as the notice states that the CFO will be glad to answer any questions or
provide additional information.

        In conclusion, OCFO reiterates that it is evident that training for management needs to be
provided, which they are going to provide in the near future. In addition to issuing a procedural
notice this year, OCFO will organize conference calls by regions to the field offices to reinforce
the message of the procedural notice and provide an opportunity for the district directors to ask
questions. These questions will be answered on a one-to-one basis and district directors will be
encouraged to contact the Office of Analysis, Planning and Accountability (OAPA).

OIG Evaluation of Management's Response:

        We have removed the statement that OCFO did not follow up with management when
they did not provide their requested assertion letters by the due date and instead stated that
OCFO did not ensure that all program office assertion statements were submitted timely. As far
as having the CFO act as the primary contact for any assertion statement questions, it is apparent
that the program and district offices did not take advantage of that offer. We believe that OCFO
as the responsible office for this process, should take a proactive approach in ensuring that
requested officials both understand the complete process and are properly using the tools
available.

        We believe that providing training to management, actively communicating with
asserting officials and dedicating a specific contact office within OCFO, are all steps in the right
direction. It is important to note that conference calls with the district directors will only
partially solve the problem. OCFO needs to also talk to the program officials within the Agency
to reinforce the message of the internal control procedural notice and provide program officials
an opportunity to ask questions and speak with OAPA directly. We recommend that these
meetings not be exclusively held with the asserting official, but also the managers who are
assisting in the internal control assessment and assertion statement writing process.


Finding 5: SBA's FY 2002 Statement on Internal Controls Contained Inaccurate
           Information

       As discussed in finding 1, several of the Agency managers we interviewed were
unclear as to their roles and responsibilities with respect to FMFIA. This confusion led to
SBA including inaccurate information in SBA's FY 2002 PAR regarding the process used to
gather the information for the Administrator's assurance statement. SBA stated in the PAR
that OFO reviewed the assertion letters from the district managers and ensured that any areas
of concern noted by district managers were reported and trends were incorporated in the
Agency's internal control efforts. SBA further stated that based on this review, OFO
provided comments to OCFO.

        This statement is inaccurate. OFO stated they did not review the assertion letters
provided by the district offices and did not provide an assertion letter or similar document to
OCFO during FY 2002 (see details in Finding 1). Despite the fact that OCFO did not receive an
assertion letter from OFO, which would indicate that the aforementioned requirement had not
been met, OCFO included a statement in the PAR regarding the assurance statement
development process that was incorrect. This problem indicates a serious lack of controls within
the Agency to oversee the annual internal control assessment process.


SBA Management Response:

        OCFO generally agreed with finding 5 but believes that it would be more appropriate to
include it as evidence that internal control procedures need to be better communicated
throughout the agency. They believe that because this was an issue in FY 2002 and was
corrected in FY 2003, that the issue does not merit being a finding and recommendation on its
own.

OIG Evaluation of Management's Response:

        The finding addresses an issue that occurred during the time period covered by the audit
and, therefore, the finding remains unchanged. As a result of the issue being corrected in FY
2003, we have removed the recommendation.


Finding 6: Potential Material Weakness Identified in the FMFIA Assessment Process

        OMB Circular A-123 states that agencies need to plan for how the requirements of OMB
Circular A-123 will be implemented throughout the agency and develop a written strategy to
ensure that appropriate action is taken throughout the year to meet the objectives of FMFIA.
OMB Circular A-123 states that the absence of such a strategy may itself be a serious internal
control deficiency.

        As it is apparent through the findings in this report, there are significant weaknesses in
SBA's internal control assessment process. At the time of our exit conference, OCFO officials
stated that they had designed a new group within their office to handle internal control matters
and were considering implementation of a new internal control framework into the Agency.
Until such time that a new framework is developed and implemented, appropriate internal
controls may not be in place to ensure the effectiveness and efficiency of the Agency's operations
and compliance with FMFIA at this point in time. Therefore, SBA should consider reporting a
related material weakness in the Administrator's FY 2004 internal control assurance statement.
Recommendation:

We recommend that the Chief Financial Officer:

6A.    Report the deficiencies related to the internal control assessment and FMFIA reporting
       process identified by the OIG as a material weakness in the annual assurance statement
       that is released in SBA's Performance and Accountability Report for FY 2004, unless all
       recommendations included in this report are addressed before that time.


SBA Management's Response:

       OCFO disagreed with finding 6. They believe that based on the additional information
and clarification provided in their response, the current issues existing within the internal control
process do not rise to the level of a material weakness.

OIG's Evaluation of Management's Response:

        We recognize the accomplishments that OCFO has made and hope that as a result of this
audit, improvements will continue to be made. However, if the recommendations stated in this
report are not addressed by the time the Administrator's annual assurance statement for FY 2004
is published, we believe that the Agency should consider reporting a related material weakness.
Of particular concern is the Agency's lack of adequate written policies and procedures regarding
internal control assessment and reporting according to FMFIA.


                                            ***
      These findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.


        Please provide us your management decision for each recommendation within 30 days.
Your management decision should be recorded on the attached SBA Forms 1824,
"Recommendations Action Sheet," and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.


       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-[FOIA Ex. 2].


Attachments
